                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: A09040031                                                                      Page 1 of 1



                 We identified a significant amount of text apparently copied from an awarded NSF proposal
         (the Source)1 from one institution2 into another NSF proposae from another institution4 submitted by
         a group of PI5/CoPls 6 that did not participate in the Source. Through our inquiry we determined
         there was a need to conduct an investigation with respect to the PI, who appeared to be the person
         who copied from the Source. We referred the matter to the PI's institution, which completed an
         investigation. The institution: found the PI committed plagiarism; removed him as acting
         Department Chair; restricted his ability to apply for·an open deanship; and required him to have his
         proposals reviewed by an internal committee for 3 years.

                 The attached report of investigation and the letters of the Deputy Director summarize the
         details of our investigation.

                   Accordingly, this case is closed.




NSF 01G Form 2 (11/02)
                                  NATIONAL SCIENCE FOUNDATION
                                       4201 WILSON BOULEVARD
                                      ARLINGTON, VIRGINIA 22230



                                             OCT 1 8 2011                          Hl/1q,<f663/
                                                                                          J




      OFFICE OF THE
        DIRECTOR




VIA CERTIFIED MAILIRETURN RECEIPT REQUESTED




       Re: Notice 0/ Debarment


Dear Dr. Meyinsse:

On May 9, 2011, the National Science Foundation ("NSF") issued to you a Notice of?roposed
Debannent ("Notice"), in whiyh NSF proposed to debar you from directly or indirectly obtaining .
the benefits of Federal grants for a period of one year. As reflected in the Notice, NSF proposed
your debannent for submitting a proposal to NSF that contained plagiarized material. lIn      .
addition, NSF took additional administrative actions against you in accordance with NSF's
regulations governing research misconduct. 11;1 that Notice, NSF provided you with th~rty days to
respond to the proposed debarment.

On July 13, 2011, you submitted a timely response to the Notice. In your response, you did not'
dispute the factual findings made by the OIG. You indicated, however, that you are currently
               .       investigator on three grants, two of which are scheduled to expire on
                     . You expressed concern about the impact that your debarment would have
on                     students, collaborators, and.other participants that are beneficiaries of these
grants. As you have been involved with these grants for several years, you also expre~sed a
desire to prepare and submit the final reports for them. Thus, you requested that NSF maive the
debannent period or, alternatively, that NSF delay the beginning of the debarment period until
January 2012.

I am not persuaded that a waiver ofthe debannent period is appropriate in this case, as you have
not disputed or challenged the facts set forth in the OIG investigation report. However, in light
of the fact that two of your grants are slated to expire at the end of the calendar year, and




                                                                                          j
                                                                                              - 2 -
considering the impact that an immediate debarment might have on the others involved in those
grants, I believe that it is reasonable to postpone the start of the debarment period until January
2012. Thus, effective January 7, 2012, you will be debarred. Your debarment will be in effect
until December 31, 2012. Debarment precludes you from receiving Federal financial and non        M




fmancial assistance and benefits under non-procurement Federal programs and activities unless
an agency head or authorized designee makes a determination to grant an exception in
accordance with 2 CFR 180.135. Non-procurement transactions include grants, cooperative
agreements, scholarships, fellowships, contracts of assistance, loans, loan guarantees,!subsidies,
insurance, payments for specified use, and donation agreements.
                                                                                        i
In addition, you are prohibited from receiving Federal contracts or approved subcontr~cts under
the Federal Acquisition Regulations at 48 CFR Subpart 9.4 for the period of this debarment.
2 CFR 180.925. During the debarment period, you may not have supervisory responsibility,
primary management, substantive control over, or critical influence on, a grant, contrAct, or
cooperative agreement with any agency of the Executive Branch of the Federal Govetrunent.

Lastly, please note that, in the May 9, 2011, Notice, NSF also took the following actiQns against
you, which continue to remain in effect:

   •   From the end of your debarment period through December 30, 2015, you are required to
       submit certifications to NSF's Office ofInspector General that any proposals orreports
       you submit to NSF do not contain plagiarized, falsified, or fabricated materiaL

   •   From the end of your debarment period through December 30,2015, you are required to
       submit assurances by a responsible official of your employer that any proposals or reports
       you submit to NSF do not contain plagiarized, falsified, or fabricated material. These
       assurances must be submitted to NSF's Office ofInspector General.

   •   You are prohibited from serving as a reviewer of NSF proposals until May 1,2014.

   •   You are required to complete an ethics training course on plagiarism no later than May 1, .
       2012 .. You must certify in writing to NSF's Office ofInspector General that such training
       has been completed.                                                             .

Should you have any questions regarding the foregoing, please contact _ , Assistant
General Counsel, at (703) 292-8060.


                                                     Sincerely,



                                                     Dr. Wanda Ward
                                                     Senior Advisor to the Director
                                 NATIONAL SCIENCE FOUNDATION
                                      4201 WILSON BOULEVARD
                                     ARLINGTON, VIRGINIA 22230


                                            May 9, 2011




CERTIFIED MAIL --RETURN RECEIPT REQUESTED




        Re: Notice ofProposed Debal'lllellt amI Notice ofResem'cII Miscolldllct Determillatiol1

Deal' Dr. Meyinsse:




In light of your misconduct, this letter selves as formaL notice that NSF is proposing to debar you
fi'om directly or indirectly obtaining the benefits of Federal grants for one year. During your
period of debalment, you will be precluded from receiving Federal financial and non-financial
assistance and benefits under non-procurement Federal programs and activities. hI addition. you
will be prohibited from receivjng any Federal contracts or approved subcontracts under the
Federal Acquisition Regulations (UF AR"). Lastly, during your debalment period. you'!will"   be
barred from having supelvisory responsibility, primary management, substantive conti~ol over, or
critical influence on. a grant, contract. or cooperative agreement with any agency ofth~
Executive Branch of the Federal Government.                                              .

In addition to proposing your dehalment, I am prohibiting you from selving as an   NS~   reviewer•.
advisor, or consultant to NSF until May 1.2014. Furthermore, for three years fi'om thl(
expiration of your debarment period, I am requiring that you submit certifications, and that a
responsible official of your employer submit assurances, that any proposals or rep011s you submit
to NSF do not contain plagiarized, falsified, or fabricated material. Lastly, you must c~mplete an
ethics training course on plagiarism by May 1,2012, and certify in writing to the OIG ~hat you
have done so.
                                                                                               Page 2
 Reseal'ch Misconduct and Sanctions other than Debarment

 Under NSF's regulations, "research misconduct" is defined ~s "fabrication, falsification, or
 plagiarism in proposing or perfolTIling research funded by NSF, .. " 45 CFR § 689. 1(a). NSF
 defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
 without giving appropriate credit." 45 CFR § 689. 1(a)(3). A finding of research misconduct
 requires that:

         (1) There be a significant departure from accepted practices of the relevant research
             community; and
         (2) The research mjsconduct be committed intentionally, or knowingly, or rec~lessly; and
         (3) The allegation be proven by a prepOl\derallCe of evidence.

 45 CFR § 689.2(c) .

 . Your proposal contained v.erbatim and paraphrased text copied from a successful prop9sal that
   had been submitted previously to NSF for fimding. By submitting a proposal to NSF that copies
   the ideas or words of another without adequate attribution, as described in the OIG inv~stigative
   report, you misrepresented someone else's work as your own. In addition, you failed t~ properly
. acknowledge or credit the authors of the source docmnents in your proposals. Your cdnduct
   unquestionably constitutes plagiarism. I therefore conclude that your actions meet the :~pplicable
   definition of "research misconduct" set fOlih in NSF's regulations.                    !!



 Pursuant to NSF's regulations, the Foundation must also detennine whether to make aJindiJlg of
 misconduct based on a preponderance of the evidence. 45 CFR § 689.2(c). After reviewing the
 Investigative Report, NSF has detennined that, based on a preponderance of the eviderlce, your
 plagiarism was committed knowingly and constituted a significant departure from accepted
 practices of the relevant research community. I am, therefore, issuing a finding of research
 misconduct against you.                                                                 '

NSF's regulations establish three categories of actions (Group I, II, and Ill) that can be taken in
response to a finding of misconduct. ·45 CFR § 689.3(a). Group I actions include issuihg a Jetter
of repdmand; conditioning awards on prior approval of palticular activities fl:om NSF~ l'equiring
that an institution or individual obtain special prior approval of particular activities frOlll NSF;
and requiting that an institutional representative certify as to the accuracy of repOlts or
certifications of compJiance with particular requirements. 45 CFR §689.3(a)(l). Group IT
actions include award suspension or restrictions on designated activities or expenditures;
requiring special reviews ofrequests for funding; and requiring conection to the research record.
45 CFR §689.3(a)(2). Group ill actions include suspension or telmination of awards;
prohibitions on participation as NSF reviewers, advisors or consultants; and debannentor
suspension from paliicipation in NSF.programs. 45 CFR §689.3(a)(3).
                                                                                                 Page 3
 In detennining the severity of the sanction to impose for research misconduct. I have considered
 the seriousness of the misconduct; om' detelmination that it was committed knowingly; the fact
 that the source document was a proposal previously funded by NSF; the fact that it was an
 isolated incident; and the fact tbat your misconduct had no impact on the research recol·d. I have
 also considered other relevant circmnstances. 45 CFR § 689.3(b).

 Based on the foregoing, I am imposing the following actions on you:

    •   For tlu'ee years from the end of your debamlcnt period, you are required to suhrp.it
        cedifications that any proposals or reports you submit to NSF do not contain pl~giarized.
        falsified, or fabricated material.

    •   For three years from the end of your debanllent period, you are required to submit
        assurances by a responsible official of your employer that any proposals or repdrts you
        submit to NSF do not contain plagiarized, falsified, or fabricated material.    II


    •   Frolll the date of this letter through May I, 2014, you are prohibited fl.-om selviIlg as an
        NSF reviewer. advisor. or consultant.                                               !

    •   You arc required to complete an ethics training course on plagiarism by May 1,12012.
        You must certify in writing to the ora that such training has been completed. !!
                     I

All certifications and assurances should be submitted in writing to NSF's Office ofInspector
General, Associate Inspector General for Investigations, 4201 Wilson Boulevard, Arlington,
Virginia 22230 .


. Debarment

RegulatOlY Basis for Debarment

Pursuant to '2 CFR 180.800, debannent may be imposed for:

        (b)    Violation of the telms of a public agreement or transaction so serous as to affect
               the integrity of an agency program, such as -

               (1)       A willful failure to perfom1 in accordance with the telms of one or more
                         public agreements or transactions; or


               (3)       A Willftll violation of a statutory or regulatory provision or requirement
                         applicable toa public agreement or transaction.
                                                                                             Page 4
In any debamlent acHon, the government must establish the cause for debalment by a :
preponderance of the evidence. 2 CFR 180.850.. In this case, you knowingly plagiarited
material in a grant proposal submitted to the Foundation. Thus, yOUI' action supports a ~ause for
debalment under 2 CFR 180.800(b).                                                       "


Length ofDebarmellt

                         a
Debannent mustbe for period commensurate with the seriousness ofthe causes upon which an
individual's debarment is based. 2 CFR 180.865. Generally, a pedod of debannent should not
exceed three years but, where circumstances warrant, a longer period may be imposed. 2 CFR
180.865. Having considered the setiollsness of your actions, as well as the relevant aggravating
and mitigating factors set forth in 2 CFR 180.860, we are proposing your debalment for one year.


Appeal Procedures fo}' Finding of Reseat'cIt Misconduct and Procedures Governing
Proposed Debarment


Appeal Procetllll'es fol' Fillding ofReseal'c!J Miscolltiuct

Under NSF's regulations, you have "30 days after receipt of this letter to submit an appdal of tIlls
finding, in writing, to the Director ofthe Foundation. 45 CFR 689.1O(a). Any appeal ~hould be
addressed to the Director at the National Science Foundatioll, 4201 WilSOll Boulevard,Arlington,
Virginia 22230. If we do not receive your appeal within the 30-day period, the decision on the
finding of research misconduct will become final. For your infomlation, we are attaching a copy
of the applicable regulations.
           I




P,'ocedul'es Govel'1l;lIg Pl'oposed Dehal'1llellt

The provisions'of2 CFR Sections 180.800 through 180.885 govern debarment procedures and
decision-making. Under our regulations, you have 30 days after receipt of this notice to submit,
in person or in writing, or through a representative, infOlmation and argument in opposition to
this debarment. 2CFR 180.820. Comments submitted within the 30-day period will receive full
consideration and may lead to a revisioll.oftherecommended disposition. If NSF does not
receive a response to this notice within the 30-day period, this debannent
                                                                   .       will become final.
                                                                                        .

Any response should be addressed to Lawrence Rudolph, General Counsel, National Science
Foundation, Office ofthe General Counsel, 4201 Wilson Boulevard, Room 1265, Arlinkton,
Virginia 22230. For your infOlmation, we are attaching a copy of the Foundation's regu,lations
on non-procurement debannent and FAR Subpart 9.4.
                                                                                Page 5
Should you have                                                     Assistant
                                                                         !
General CounseJ, at



                                        Sincerely,


                                        ~~
                                        Wanda Ward
                                        Senior Advisor to the Director



Enclosures:
Investigative Report
Nonprocurement Deballnent Regulations
FARReguJations
45 CFR Part 689
CONFIDENTIAL                                                                       CONFIDENTIAl!
                                                                                                      I




      National Science Foundatio'!n
        Office of Inspector Genera)




                       Confidential'
                  Report of Investigation
                 Case Number A09040031
                              5 January 2011
                This Confidential Report of Investigation is provided to you
                                FOR OFFICIAL USE ONLY.
 It contains protected personal information, the unauthorized disclosure of which mayiresult in
 personal criminal liability under the Privacy Act, 5 U.S.C. § 552a. This report may tile further
 disclosed within NSF, only to individuals who must have knowledge of its contents to
 facilitate NSF's assessment and resolution of this matter. This report may be disclosed
 outside NSF only under the Freedom of Information and Privacy Acts, 5 U.S.C. §:§ 552 &
 552a. Please take appropriate precautions handling this confidential report of investigation .
                                                                                         ..

                                                                               NSF OIG Form 22b (11/06)
CONFIDENTIAL                                                         CONFIDENTIAL


                                   Executive Summary

Allegation:         Plagiarism of text from a funded NSF proposal into a declined NSF
                    proposal.

OIG Inquiry:        We identified 402 lines of text and 2 tables copied nearly verbatim into an
                    NSF proposal from another research group's awarded NSF proposal. The
                    Subject admitted to the copying when we contacted him. Two of three
                    remaining CoPIs provided corroborating stories. One CoPI from   , a different
                    campus did not respond.                                          '

University          The University concluded that the Subject plagiarized the sourcr based on
Investigation and   his admission that he appropriated ideas without giving credit, and that his
Action:             actions were not premeditated, but rather poor judgment. The University
                    restricted his ability to apply for a deanship, removed him from his current
                    position as department chair, and required him to have his proposals
                    reviewed by an internal committee for 3 years.

OIG's Assessment:   •   The Act: Nearly verbatim plagiarism of 402 lines and 2 tables in a
                        pending proposal.
                    •   Intent: The Subject acted knowingly.
                    •   Standard·ofProof: The preponderance of the evidence supports the
                        conclusion regarding the act and intent and a finding of rese'arch
                        misconduct.
                    •   Significant Departure: The Subject's actions are a significant
                        departure from the accepted practices of the research community.
                    •   Pattern: None apparent.

OIG                 •   Send the Subject a letter of reprimand.
Recommendation:     •   Debar the Subject for 1 year.
                    •   Require the Subject to submit certifications for 3 years post debarment.
                    •   Require the Subject to submit assurances from his employer:for 3 years
                        post debarment.
                    •   Require the Subject to certity completion of ethics training within 1 year
                        of NSF's finding.
                    •   Ban the Subject from participating as a reviewer, advisor, or consultant
                        for NSF for a period of 3 years post debarment.




                                                                                               1
CONFIDENTIAL                                                              CONFIDENTIAL

                                                      OIG's Inquiry

        We reviewed an allegation that a pending NSF proposal (the Proposal) I was similar to the
proposal for an NSF award (the Source)2 submitted approximately 2 years earlier. Initial
comparison of the proposals with software 3 showed approximately 63% of the text ofihe
Proposal in common with the Source. A complete review of the documents showed a total of
402 lines of apparently copied text and 2 tables describing research timetables and met~odology.
In copying the text from the Source, the subject appeared to have altered institutional references
to reflect his own institution and not that of the institution referenced in the Source.

        We wrote the PI (the Subject) and his three CoPIs for their perspective on the
            4
allegations. The Subject, S CoPI 1, 6 and CoP I 2, 7 who are all at the same institution (the
             8
University), provided responses. 9 The remaining CoPI (CoPI 3),10 who is employed at a
different campus 11 within the same university system, did not respond to our inquiry. The
Subject asserted responsibility for the copied text indicating that he had obtained the Source from
a colleague while attending a proposal writing workshop. 12 Neither CoPI 1 nor CoPI 2!appeared
aware that the Proposal contained copied text. CoPI 2 provided a draft of the Proposal on which
he made comments, primarily single-word or small phrase changes reflecting stylistic and word
choice preferences.

       Based on our inquiry, we determined a referral of investigation would be appropriate to
develop the evidentiary record for a complete assessment of the allegation. The UniverMty
accepted our referral.

                          The University's Investigation and Proposed Actions l3

       The University prepared an investigation/audit plan 14 consistent with the policie~
described in the University Faculty Handbook 15 and similar to the procedures in the NSF




\3   Tab 10, the University'S Investigation Report.
14   Tab 9.
15   Tab 8.


                                                                                                  2
CONFIDENTIAL                                                                        CONFIDENTIAL

 research misconduct regulation. An ad hoc committee consisting of faculty me~bersl,6 and the
 University's internal auditor collected evidence and interviewed the Subject to asses~ the
                              17

 allegation and develop its report.

        The committee found that the Subject committed plagiarism as evidenced by his
admission "that he appropriated ideas from another proposal without giving appropriate
credit.,,)8 The committee also found that "the act of plagiarism is a serious matter, but in the
case of [the Subject], the actions he took were somewhat innocuous and did not rise to"the level
of premeditated fraud.,,)9 The committee instead found that the Subject's actions "were a
reflection of poor judgment.,,2o The committee also reviewed the Subject's other written work,
identifying one state grant proposal with questionable mater~aL 2) The committee accepted the
Subject's explanation that that work was a collaborative effort with a colleague at another
institution and was never submitted for cons ideration. 22

       The committee did not make an explicit finding of research misconduct nor did it address
the specific level of intent. It inste~d determined that the Subject's actions were not
"premeditated fraud," which we interpret as a conclusion that the Subject did not act,
purposefully (i.e., intentionally as the term is used in 45 C.F.R. 689.2(c)(2)). The committee
therefore did not address whether the SUbject's actions were "reckless," i.e., the threshold level
of intent that would merit a finding of research misconduct by NSF.

        The committee recommended that: 1) the University prohibit the Subject from applying ,
for the permanent position of Dean of the Graduate             the U'    . remove the
~om his current position as Chair of the
_ ; and 3}3 the Provost review the               s grant prcIPo:;als
next three years.

                  The Subject's Responses to the University's Investigation Report

       The University investigation report was silent with regard with whether the Subject
provided comments before the committee finalized the report. We wrote to the Subject 'and
provided a copy of the report requesting his comments and notifying him that we were




16 One of the original members of the committee recused himselffollowing our pre-investigation briefing~with the
committee. University counsel determined there was an unmanageable conflict of interests with respect to this
committee member. The management of possible conflicts was of concern in this case because of the close, tight-
knit                      where         of the                   as further complicated by the Subject's position
                                                            from where the University would reasonabl~ draw its
                                                        thepraetie,es of the relevant field.


19 Tab   10 at A09-31-000123.
20 Tab   10 at A09-31-000124.
21 Tab   10 at A09-31-000124.
22 Tab   10 at A09-31-000124.
23 Tab   10 at A09-31-000124.


                                                                                                                    3
    CONFIDENTIAL                                                                            CONFIDENTIAL

                                 24
    continuing our investigation. He indicated that he had not previously seen the University's
    report and that he had no comments regarding the copy we provided him. 25

                                       OIG's Investigation and Assessment

            We reviewed the University's investigation report and found the committee conducted
    the investigation in accordance with reasonable procedures. However, the report lacked
    thorough documentation of the Subject's interview and a definitive statement regarding a level of
    intent.

           The investigation committee determined that the Subject's actions were not
    "premeditated fraud"; however, the committee made no other explicit statement about intent.
    The NSF research misconduct regulation defines four levels of intent: careless, reckless,
    knowing and intentional (or purposeful)26. Ofthese four levels of intent, only "intentional"
    would reasonably include the notion of a premeditated action. Therefore, we interpret the
    committee's statement as a conclusion that the Subject did not act intentionally (or purposefully).
    We also note that the University's actions, supra, are consistent with findings of research
    misconduct at other universities where the subjects were found to have acted at least recklessly.


            A finding of misconduct requires: (I) there be a significant departure from accepted
    practices ofthe relevant research community, (2) the research misconduct be committed
    intentionally, or knowingly, or recklessly, and (3) the allegation be proven by a preponderance of
    the evidence. 27 -

                                                          The Act

           Based on the Subject's admission to us and the investigation committee, and the
    corroborating evidence provided by the two CoPls who responded to our letter, we conclude that
    the Subject copied 402 lines of text and 2 tables from the Source (a funded NSF proposal). The                            I
    Subject did not provide attribution to the Source. In fact, the only citations associated with the
    copied text are those copied as embedded references 28 from the Source. We conclude that the
    Subject's copying of 402 lines and 2 tables froma funded NSF pr9posal constitutes pla~iarism
    and exceeds any threshold for a significant departure from accepted practices.



           The Subject's actions demonstrate at the least a knowing intent to submit a proposal
    mostly copied from another person whom he failed to acknowledge. It would be implausible to
    characterize the physical act of copying 402 lines and 2 tables, and the apparent minimal effort

I   24 Tab II.
    25 Tab 12.
    26
       45 C.F.R. 689.2(c)(2)).
    27
       45 C.F.R. 689.2(c).
    28 Embedded references are the citations to sources and their associated entries in the bibliographic refere~ce section
    that are copied along with plagiarized material.


                                                                                                                          4
CONFIDENTIAL                                                               CONFIDENTIAL

un~ertaken to revise institution-specific references so that they referred to the University, as
reckless or careless on the Subject's part.

                                           Standard o(Proo(

         The preponderance of the evidence, including the subject's admission that he copied the
text, supports that the Subject knowingly plagiarized from the Source in the Proposal and that
this actions were a significant departure from the accepted practices of the relevant research
community.

           We therefore conclude that the subject's actions constitute research misconduct.

                                  OIG's Recommended Disposition

       When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider:
             (1) How serious the misconduct was; (2) The degree to which the
             misconduct was knowing, intentional, or reckless; (3) Whether it
             was an isolated event or part of a pattern; (4) Whether it had a
             significant impact on the research record, research subjects, other
             researchers, institutions or the public welfare; and (5) Other
             relevant circumstances. 29

                                              Seriousness

        The Subject's actions in this case are serious. Although they appear limited to a single
submitted, but declined proposal, the Source was an awarded NSF proposal, a public dopument
available through the Freedom ofInformation Act (FOIA). In this case, the Subject obtained the
Source directly from a colleague. Had the evidence shown that the Subject used a source that
was confidential or obtained through duplicitous means the seriousness of his actions would be
far greater. The absence of such duplicitous means does not negate the severity and
egregiousness of copying a large volume of text, including methodology, from any awarded NSF
proposal.

        When confronted with the allegation, the Subject immediately took responsibility for his
actions and did not shift blame, for example to his CoPIs. However we must balance these facts
with the Subject's position at the University                                  where there is
an expectation of enforcing and maintaining                                     standards.

                                 Degree to which the Act was Knowing

       The Subject's actions in this case were knowing, falling short of intentional (purPoseful).
As we noted above, it is implausible to characterize the volume of copied material, including the
same general format and the embedded references, as anything less than a knowing act. The
Subject asserte<din his first response to us that he had obtained the material from a colleague,
29
     45 C.F.R. 689.3(b).


                                                                                                   5
           CONFIDENTIAL                                                                          CONFIDENTIAL


           which suggests that he may believe that he had permission from the Source author to submit the
           material to NSF in his own proposal. We note that there is no evidentiary support beyond this
           inference from the Subject's response that he had obtained permission. However, permission
           from the author of the Source neither negates the unattributed copying of the material nor fully
           mitigates the intent behind doing so. The Subject did not provide attribution to the source he
           actually copied, relying instead on the embedded citations as well as the text to suggest that it
           was his original work.

                   Many of the changes to the copied material appear to have been made by a CoPI who
           provided us with a copy of the Proposal draft he edited, believing it to be the original work of the
           Subject. Typically, we. conclude that a subject acts with a purposeful level of intent when we
           can identify word or phrase modifications such as a change in tense, person, citations (deletion or
           addition), or basic style as an affirmative action by the Subject to present and adopt another's
           text as one's own. The Subject was not responsible for these types of modifications to the text.
           Instead, the Subject's individual contributions, aside from the initial copying, appear to': be in
           supplementing the copied text with larger passages related to his own institution.

                  Given the evidence at hand and the committee's conclusion that the Subject's actions
           were not a "premeditated fraud," we conclude that the evidence supports a highly elevated level
           of knowing intent.

                                                         Pattern of Behavior

                     The evidence does not support a pattern of behavior beyond the Proposal analyzed here.

                                                          Recommendations

                     Based on the evidence, OIG recommends that NSF:

                 •   Send the Subject a letter of reprimand informing him that NSF has made a finding ~'f research
                     misconduct; 30
                .•   Debar the Subject for 1 year;31
                 •   Require the Subject to certify to the Assistant Inspector General for Investigations (AlGI)
                     completion of research ethics training, including the proper attribution of copied or '.
                     paraphrased material, within 1 year of the finding of research misconduct;32
                 •   For 3 years following the debarment, require the Subject to certify to the AlGI each time he
                     submits a proposal or report to NSF that the proposal or report does not contain plagiarized,
                     fabricated, or falsified material; 33


           30 A Group I action 45 C.F.R. 689.3(a)(1)(i).
           31 A Group III action 45 C.F.R. 689.3(a)(3)(iii). The seriousness ofa senior academic official copyingsuc,h a large
           amount of text, including methodology, from an awarded NSF proposal warrants debarment for this period for the
           protection offederal programs. We considered the potential mitigating effect of the manner by which he received
           the proposal relative to similar debarment cases that also involved breach of peer review confidentiality or,other
           aggrav~ting factors.
           32 This action is not specified within the regulation (See 45 C.F.R. 689.3(a». It is similar to Group I actions 45
           C.F.R. 689.3(a)(1).                                                                                           ;


                                                                                                                                 6



l""",._ _~~_ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ ~l                                             ________
CONFIDENTIAL                                                               CONFIDENTIAL


   •   For 3 years following the debarment, require the Subject submit to the AlGI assurances by a
       responsible official of his employer each time he submits a proposal or report to N'SF that the
       proposal or report does not contain plagiarized, fabricated, or falsified material; 34 ,
   •   For a period of3 years followin~ the debarment, bar the Subject from serving as aT! NSF
       reviewer, advisor, or consultant. 5

                The Subject's Response to OIG's Draft Investie.ation Report

        The Subject asserted that our proposed recommendations "will seriously affect [his]
teaching, research and service to the community" noting three specific NSF awards for which he
is currently the PI. 36 However, we note that each of the awards includes multiple CoPIs the    .
University could select as substitute PIs with NSF approval. Given the large amount of. funding
involved in the three awards (~) and the science education emphasis of each award, we
have not altered our recommendations.




                                                                                                     7
